No.

3Jn tbe ~upreme QC:ourt of tbe llnfteb ~tates
Laurel Zuckerman, as Ancillary Administratrix of the
Estate of Alice Leffmann,

Petitioner,
V.

The Metropolitan Museum of Art,

Respondent.
APPLICATION FOR EXTENSION OF TIME TO FILE A
PETITION FOR WRIT OF CERTIORARI

To the Honorable Ruth Bader Ginsburg, Associate Justice of the United
States Supreme Court and Circuit Justice for the United States Court of Appeals
for the Second Circuit:
1.

Pursuant to Supreme Court Rules 13.5 and 30.2, Petitioner Laurel

Zuckerman, as Ancillary Administratrix of the estate of Alice Leffmann (the
"Ancillary Estate"), hereby respectfully requests a 58-day extension of time, to and
including January 24, 2020, within which to file a petition for writ of certiorari. This
Court's jurisdiction would be invoked under 28 U.S.C. § 1254(1).
2.

The Second Circuit issued its decision on June 26, 2019, and it declined

to rehear this case on August 29, 2019. Copies of the decision and order denying
rehearing are attached. Without an extension of time, a petition for writ of
1

certiorari would be due on November 27, 2019. No prior application for an extension
of time has been made in this case.
3.

In this action, Petitioner Laurel Zuckerman, on behalf of the Ancillary

Estate, seeks to recover The Actor (the "Painting"), a masterwork by Pablo Picasso.
Zuckerman's great-granduncle (Paul Leffmann, a German Jew) sold the painting
under duress in 1938 for a price far below its actual value to pay for his and his
wife's safe passage out of Italy, which by that time had adopted and implemented
the Nazis' anti-Semitic policies and physical persecution of Jews. 1
4.

The Painting now hangs in the Metropolitan Museum of Art (the

"Met"), which has changed the provenance listing of the Painting numerous times
since it first received the Painting from a donor in the early 1950s. It was not until
2011, however, that the provenance acknowledged Leffmann's ownership through
1938 and his transfer of the painting during the Nazi era.
5.

In 2010, Zuckerman demanded that the Met return the Painting. The

parties entered into multiple standstill agreements to toll the statute of limitations
from February 7, 2011 to September 30, 2016. But the Met ultimately refused to
return the Painting. Zuckerman, on behalf of the Ancillary Estate, sued the Met,
asserting causes of action for replevin and conversion, and seeking monetary and
declaratory relief.

In 2010, Zuckerman received Ancillary Letters to administer the estate of Alice
Leffmann, the sole heir of Paul Leffmann.
2
1

6.

The U.S. District Court for the Southern District of New York

dismissed the action for failure to state a claim, concluding that the complaint had
inadequately alleged duress under New York law in connection with the sale of the
Painting. Zuckerman v. Metro. Museum of Art, 307 F. Supp. 3d 304, 308 (S.D.N.Y.
2018).
7.

On June 26, 2019, the U.S. Court of Appeals for the Second Circuit

affirmed the judgment of the District Court, but on a different rationale. Zuckerman
v. Metro. Museum of Art, 928 F.3d 186, 190 (2d Cir. 2019). The Second Circuit held
that the defense of laches barred Zuckerman's claims against the Met, reasoning
that the suit was unreasonably delayed by seventy years (the period between Paul
Leffmann's sale of the Painting in 1938 and Zuckerman's demand for the painting
in 2010) and that this delay would prejudice the Met. Id. at 190, 193.
8.

The court further concluded that the Holocaust Expropriated Art

Recovery ("HEAR") Act of 2016 did "not preempt the Met's laches defense," and
therefore affirmed the dismissal of Zuckerman's complaint on the pleadings,
without allowing for any discovery on the inherently fact-specific defense of laches.

Id. at 190; see also id. at 196 (concluding that the HEAR Act allows "defendants to
assert a laches defense, despite the introduction of a nationwide statute of
limitations designed to revive Holocaust-era restitution claims").
9.

On August 29, 2019, the Second Circuit denied Zuckerman's petition

for rehearing or rehearing en bane.

3

10.

This case presents an issue of national importance. The HEAR Act

establishes a uniform six-year statute of limitations, runnmg from "actual
discovery" of the identity and location of the Holocaust-era artwork at issue, in
which to assert claims to recover the artwork. Yet, in holding that the judicially
created doctrine of laches overrides the HEAR Act's congressionally mandated
statute of limitations, the Second Circuit ignored United States policy, the purpose
of the HEAR Act, and this Court's precedents.
11.

United States policy on Holocaust-era art, as reflected in the 1998

Washington Conference Principles on Nazi-Confiscated Art and the Terezin
Declaration on Holocaust Era Assets and Related Issues, mandates that claims to
recover artworks unlawfully lost because of Nazi persecution be adjudicated on the
merits, rather than dismissed on technical procedural grounds. See Von Saher v.

Norton Simon Museum of Art at Pasadena, 754 F.3d 712, 721 (9th Cir. 2014). The
HEAR Act embodies these policies: it removes "procedural obstacles" that had
prevented suits to recover Holocaust-era artworks from proceeding, so that these
lawsuits could be heard and resolved "based on the facts and merits of the claims."
Holocaust Expropriated Art Recovery Act of 2016, Pub. L. No. 114-308, § 2, 130
Stat. 1524, 1525 (2016). Inconsistent with these policies, the Second Circuit's
decision now endorses the use of laches to bar otherwise timely claims under the
HEAR Act. If permitted to stand, the Second Circuit's decision will pose a
considerable obstacle to parties seeking to recover Holocaust-era art, a result that
would undermine Congress's intent in enacting the HEAR Act.
4

12.

The Second Circuit's decision also ignored Supreme Court precedent,

which holds that "in [the] face of a statute of limitations enacted by Congress,
laches cannot be invoked to bar legal relief." Petrella v. Metro-Goldwyn-Mayer, Inc.,
572 U.S. 663, 679 (2014); see also SCA Hygiene Prods. Aktiebolag v. First Quality

Baby Prods., LLC, 137 S. Ct. 954, 960 (2017) ("applying laches within a limitations
period specified by Congress would give judges a 'legislation-overriding' role that is
beyond the Judiciary's power"); see also Cassirer v. Thyssen-Bornemisza Collection

Found., 862 F.3d 951, 965 (9th Cir. 2017), cert. denied, 138 S. Ct. 1992 (2018)
("Read in context, HEAR's § 5(a) language that the six-year statute of limitations
applies 'notwithstanding any defense at law relating to the passage of time' is
meant to prevent courts from applying defenses that would have the effect of

shortening the six-year period in which a suit may be commenced.") (emphasis
added). Contrary to this precedent, the Second Circuit's decision now permits
defendants to rely on laches to bar claims to recover Holocaust-era artworks
brought well within the limitations period.
13.

Petitioner intends to address these and other issues at greater length

in a petition for writ of certiorari.
14.

Petitioner's requested 58-day extension of time is justified. S. Ct. R.

13.5. Undersigned counsel was retained this week, only two weeks before the
November 27, 2019 due date for a petition for writ of certiorari. The requested
extension will allow recently retained counsel sufficient time to review the record,
research and analyze the issues in the case, and prepare a petition for writ of
5

certiorari that fully addresses the far-reaching issues raised by the decision below
and frames those issues in a manner that will be most helpful to this Court.
15.

Respondent consents to Petitioner's request for a 58-day extension of

time.
WHEREFORE, for the foregoing reasons, Petitioner Laurel Zuckerman
respectfully requests an extension of 58 days (to and including January 24, 2020) to
prepare and file a petition for writ of certiorari.

Dated: November 14, 2019

Respectfully submitted,

Lawrence M. Kaye
Ross L. Hirsch
Yael M. Weitz
Herrick, Feinstein LLP
Two Park Avenue
New York, New York 10016
(212) 592-1400

Mary-Christine Sungaila
Counsel of Record
Haynes and Boone, LLP
600 Anton Blvd., Suite 700
Costa Mesa, CA 92626
Telephone: 949-202-3000
mc.sungaila@haynesboone.com

~!Mindffjl

Attorneys for Petitioner Laurel Zuckerman,
Ancillary Administratrix of the Estate of Alice Leffmann

6

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
_______________
August Term, 2018
(Argued: February 27, 2019

Decided: June 26, 2019)

Docket No. 18‐634
_______________
LAUREL ZUCKERMAN, AS ANCILLARY ADMINISTRATRIX OF THE ESTATE OF ALICE
LEFFMANN,
Plaintiff‐Appellant,
—v.—
THE METROPOLITAN MUSEUM OF ART,
Defendant‐Appellee.
_______________
B e f o r e:
KATZMANN, Chief Judge, LIVINGSTON and DRONEY, Circuit Judges.
_______________
Plaintiff‐Appellant Laurel Zuckerman appeals from the judgment of the
United States District Court for the Southern District of New York (Preska, J.)
dismissing her complaint for failure to state a claim. Zuckerman seeks recovery
of a painting by Pablo Picasso that has been in the Metropolitan Museum of Art’s

A-1

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

possession since 1952. The painting once belonged to Zuckerman’s ancestors,
Paul and Alice Leffmann, who sold it in 1938 to a private dealer to obtain funds
to flee fascist Italy after having already fled the Nazi regime in their native
Germany. The district court concluded that Zuckerman failed to allege duress
under New York law. We do not reach the issue of whether Zuckerman properly
alleged duress because we find that her claims are barred by the doctrine of
laches. Accordingly, we AFFIRM.
_______________
LAWRENCE M. KAYE (Ross L. Hirsch, Yael M. Weitz, on the brief),
Herrick, Feinstein LLP, New York, NY, for Plaintiff‐Appellant.
DAVID W. BOWKER, Wilmer Cutler Pickering Hale and Dorr LLP,
Washington, DC; Michael D. Gottesman, Wilmer Cutler
Pickering Hale and Dorr LLP, New York, NY, for Defendant‐
Appellee.
Thomas J. Hamilton, John J. Byrne, Jr., Byrne Goldenberg &
Hamilton, PLLC, for Amicus Curiae Holocaust Art Restitution
Project.
Stanley W. Levy, Benjamin G. Shatz, Diana L. Eisner, Danielle C.
Newman, Manatt, Phelps & Phillips, LLP, for Amici Curiae The
1939 Society and Bet Tzedek.
Owen C. Pell, White & Case LLP, for Amici Curiae Natalia Indrimi,
Professor Guido Alpa, and Avv. Renzo Gattenga.
Jennifer A. Kreder, Cincinnati, OH, for Amici Curiae Bʹnai Bʹrith
International, Raoul Wallenberg Centre for Human Rights,
Simon Wiesenthal Center, Omer Bartov, Michael Berenbaum,
Stuart Elliot Eizenstat, Richard Falk, Eugene Fisher, Irving
Greenberg, Peter Hayes, Marcia Sachs Littell, Hubert G.
Locke, Wendy Lower, Bruce F. Pauley, Carol Rittner, John K.
Roth, Lucille A. Roussin, William L. Shulman, Stephen Smith
and Alan Steinweis.
_______________
2
A-2

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

KATZMANN, Chief Judge:
In the 1930s, the German government, under the control of Adolf Hitler’s
National Socialist German Workers’ Party (the “Nazis”), launched a campaign of
oppression against German Jews and other minorities. As part of its reign of
terror, the Nazis and their affiliates forced Jews out of their homes, seized their
businesses, and stripped them of their property. By the late 1930s, life in
Germany for Jewish people became so dangerous that many were forced to flee
the country. Of those who were unable to escape, most were removed from their
homes, shipped to concentration camps, and murdered.
In recent decades, with the passage of time and as the number of survivors
of Nazi brutality diminishes, there has been a sense of urgency that some
measure of justice, albeit incomplete, be given to those victims and their heirs.
International conferences and subsequent declarations have outlined principles
designed to ensure, for example, that “legal systems or alternative processes,
while taking into account the different legal traditions, facilitate just and fair
solutions with regard to Nazi‐confiscated and looted art.” Prague Holocaust Era
Assets Conference: Terezin Declaration, Bureau of European and Eurasian
Affairs, U.S. Department of State (June 30, 2009), https://2009‐
3
A-3

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

2017.state.gov/p/eur/rls/or/126162.htm. What was a moral imperative has
appropriately been converted into statute, with such landmark legislation as the
Holocaust Expropriated Art Recovery Act of 2016 (the “HEAR Act”). Pub L. No.
114–308, 130 Stat. 1524. These efforts are grounded in the recognition that the
claims of survivors and their heirs must be given serious and sympathetic
consideration. To facilitate the processing of such claims, the HEAR Act creates a
nationwide statute of limitations for bringing claims to recover artwork and
other property lost during the Holocaust era. The HEAR Act directs that every
case be given individual attention, with special care afforded to the particular
facts. In that effort to render justice, the law does not eliminate equitable defenses
that innocent defendants may assert, where to do otherwise would be neither
just nor fair.
Paul and Alice Leffmann (the “Leffmanns”) were German Jews who, prior
to Hitler’s rise to power, enjoyed a flourishing and prosperous life in Germany.
They had “sizeable assets,” including a manufacturing business and multiple
properties. J. App’x 33. Among the items they owned, purchased in 1912, was
The Actor, a “masterwork” painting by the famed artist Pablo Picasso. Id. When
the Leffmanns were forced to sell their business and flee Germany in 1937, they

4
A-4

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

lost much of their property. Once in Italy, they sold their Picasso painting to raise
money to escape Hitler’s growing influence in Italy and relocate to Brazil.
Plaintiff‐Appellant Laurel Zuckerman is the Leffmanns’ great‐grandniece.
Zuckerman seeks replevin of the painting from Defendant‐Appellee the
Metropolitan Museum of Art (the “Met”). Zuckerman argues the Leffmanns sold
the Painting under duress and that the sale is therefore void. The district court
(Preska, J.), concluding that Zuckerman had failed to adequately allege duress
under New York law, dismissed her complaint.
On appeal, the Met argues, inter alia, that Zuckerman’s claims are barred
by the doctrine of laches and that such a determination can be made on the
pleadings. In this Court’s narrow ruling, we agree. Laches is an equitable defense
available to a defendant who can show “that the plaintiff has inexcusably slept
on [its] rights so as to make a decree against the defendant unfair,” and that the
defendant “has been prejudiced by the plaintiff’s unreasonable delay in bringing
the action.” Merrill Lynch Inv. Managers v. Optibase Ltd., 337 F.3d 125, 132 (2d Cir.
2003).1 Here, despite the facts that the painting was a significant work by a
celebrated artist, that it was sold for a substantial sum to a well‐known French

Unless otherwise indicated, case quotations omit all citations, internal
quotation marks, footnotes, and alterations.
1

5
A-5

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

art dealer, and that it has been in the Met’s collection since 1952, neither the
Leffmanns nor their heirs made any demand for the painting until 2010. Such a
delay is unreasonable, and the prejudice to the Met is evident on the face of
Zuckerman’s complaint. We further conclude that the HEAR Act does not
preempt the Met’s laches defense. Accordingly, we AFFIRM the judgment of the
district court.

BACKGROUND
The following facts are drawn from the allegations in Plaintiff‐Appellant’s
Amended Complaint or are “matters of which judicial notice may be taken.”
Wilson v. Merrill Lynch & Co., 671 F.3d 120, 123 (2d Cir. 2011).

I.

The Leffmanns
Paul Friedrich Leffmann, a German Jew from Cologne, purchased The

Actor, a painting by Pablo Picasso, in 1912 (the “Painting”). Mr. Leffmann and
his wife, Alice, lent the Painting for various exhibitions throughout Germany in
the early 20th Century. The Painting was also featured in articles, magazines, and
monographs.

6
A-6

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

After the adoption of the Nuremberg Laws in September 1935, the
Leffmanns’ lives in Germany became untenable. Stripped of the rights and
privileges of German citizenship, they were forced to sell their property and
businesses to “Aryan” corporations, receiving “nominal compensation.” J. App’x
34.
By 1937, it became clear that life in Germany for Jews like the Leffmanns
was no longer simply difficult, but genuinely perilous. The Leffmanns decided to
flee Germany for Italy. After paying exorbitant “flight taxes,” the Leffmanns
arrived in Italy in April 1937. They engaged in financial transactions at a loss in
order to settle in Italy. For example, the Leffmanns arranged to purchase a home
for 180,000 Reichsmark (“RM”) but pre‐agreed to later sell it back to the original
owners at a substantial loss. These “triangular agreements” were common at the
time, as they allowed individuals outside of Germany to acquire RM while
simultaneously permitting German emigrants to circumvent “the ever‐tightening
regulations governing the transfer of assets” outside of the country. Id. at 37.
Prior to fleeing Germany, the Leffmanns “arranged” for the Painting, one of their
few remaining assets, “to be held in Switzerland by a non‐Jewish German
acquaintance.” Id. at 35.

7
A-7

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

But by early 1938, Italy was no longer a safe place for Jews. The growing
influence of Nazi Germany resulted in anti‐Semitic policies—for example, in
1937, Italy’s Ministry of the Interior produced a list of all German refugees (most
of whom were Jewish) living in Italy—and a warm welcoming of Adolf Hitler in
May 1938. The Leffmanns began to make plans to flee to Switzerland, which
required money. On April 12, 1938, Paul Leffmann wrote to C.M. de Hauke, an
art dealer whom the U.S. State Department later identified as dealing in Nazi‐
looted art, from whom Leffmann had previously rejected an offer to sell the
Painting. Leffmann now sought to revive discussions about the possibility of a
sale. As matters became more perilous for Jews in Italy, Leffmann “continued to
try to sell the Painting through de Hauke.” Id. at 42. “Trying to raise as much
cash as possible,” and in attempt to “improve his leverage to maximize the
amount of hard currency he could raise,” in 1938, Leffmann told de Hauke that
he had rejected a $12,000 offer from another dealer. Id. at 42‐43.
Shortly after writing to de Hauke stating he had rejected an offer for
$12,000 from another dealer, Leffmann sold the Painting in June 1938 for that

8
A-8

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

very price to the Paris art dealer Käte Perls, who was acting on behalf of her
former husband, Hugo Perls, and another art dealer, Paul Rosenberg. 2
Funded partially by their June 1938 sale of the Painting (the “Sale”), the
Leffmanns fled to Switzerland in October 1938. The record on appeal is unclear
as to how much the Leffmanns had to pay in order to leave Italy and arrive in
Switzerland, but Plaintiff‐Appellant alleges that Swiss authorities required
immigrants to pay substantial fees and taxes in order to enter the country.
According to Plaintiff‐Appellant, “[g]iven the various payments required by
Switzerland . . . the Leffmanns depended on the $12,000 . . . they received from
the [S]ale” in order to survive. Id. at 46.
Their stay in Switzerland was short. Having only been able to procure a
temporary Swiss residence visa, the Leffmanns fled to Brazil. Relocating to Brazil
was similarly expensive. The Leffmanns had to pay unspecified bribes to acquire
the necessary documentation from the Brazilian government and deposited at
least $20,000 in the Banco do Brasil. They arrived in Rio de Janeiro on May 7,
1941. Once in Brazil, they had to pay a “levy” of $4,641 imposed by the Brazilian
government on all Germans living in the country. Id. at 46. Plaintiff‐Appellant

The selling price was $13,200, but after a 10% selling commission, the
Leffmanns came away with $12,000.
2

9
A-9

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

avers that the Leffmanns “depended on the $12,000” from the Sale for these
payments. Id.
The Leffmanns lived in Rio de Janeiro for six years. In 1947, after the war
had ended, the Leffmanns returned to Europe and settled in Zurich, Switzerland,
where they lived for the rest of their lives. Paul Leffmann died in 1956; Alice
Leffmann died in 1966. While they were still alive, the Leffmanns brought a
number of successful claims with the assistance of counsel for Nazi‐era losses,
but those claims were limited to property that was “taken in Germany” before
the Leffmanns fled Germany. Oral Argument at 25:34‐58, Zuckerman v. The
Metropolitan Museum Art, No. 18‐634,
http://www.ca2.uscourts.gov/oral_arguments.html. The Leffmanns made no
demand to reclaim the Painting.

II.

The Painting after the Leffmanns’ Sale
In 1939, Paul Rosenberg loaned the Painting to the Museum of Modern Art

(“MoMA”) in New York. Rosenberg asked MoMA to insure the Painting for
$18,000. Sometime before October 28, 1940, Rosenberg consigned the Painting to
the M. Knoedler & Co. Gallery in New York. In November 1941, that gallery sold

10
A-10

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

the painting to Thelma Chrysler Foy for $22,500. Thereafter, Foy, an arts patron
noted for her gifts of prized pieces to public institutions, donated the Painting to
the Met in 1952.
Since at least 1967, when the Painting appeared in the Met’s published
catalogue of French paintings, the Met’s published provenance of the Painting
listed Leffmann as a previous owner. Until recently, however, the provenance
incorrectly suggested that Leffmann sold the Painting after 1912; it listed the
provenance as “P. Leffmann, Cologne (in 1912); a German private collection
(until 1938).” J. App’x 48.

III.

Procedural History
On September 8, 2010, Plaintiff‐Appellant, the Leffmanns’

great‐grandniece, demanded that the Met return the Painting. The museum
refused. On October 18, 2010, Zuckerman was appointed Ancillary Administratix
of the estate of Alice Leffmann by the New York Surrogate’s Court.3 On
September 30, 2016, Zuckerman filed suit in the Southern District of New York,
asserting claims for conversion and replevin on the theory that the 1938 Sale was

On February 7, 2011, Zuckerman and the Met entered into a standstill
agreement tolling any statute of limitations as of that date.
3

11
A-11

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

made under duress. On February 7, 2018, the district court dismissed
Zuckerman’s claims “[f]or failure to allege duress under New York law.” Special
App’x 3. The district court did not address the Met’s contention that
Zuckerman’s claims are time‐barred in New York by the statute of limitations
and laches. This appeal followed.

DISCUSSION
On appeal, the Met argues, among other things, that Zuckerman’s claims
are barred by the doctrine of laches. We agree.4 Neither the Leffmanns nor their
heirs made a demand for the Painting until 2010. This delay was unreasonable,
and it prejudiced the Met. We further conclude that the HEAR Act, which creates
a uniform, nationwide six‐year statute of limitations for claims to recover art lost
during the Holocaust era, does not preempt the Met’s defense.

Below, the Met asserted its affirmative defenses—statute of limitations
and laches—but “requested that the district court address the merits‐based
defenses,” which the district court did. Appellee’s Br. 55 n.15.
4

12
A-12

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

I.

Standard of Review
We review de novo a district court’s decision to grant a motion to dismiss.

See Arar v. Ashcroft, 585 F.3d 559, 567 (2d Cir. 2009). “In so doing, we accept as
true the factual allegations of the complaint, and construe all reasonable
inferences that can be drawn from the complaint in the light most favorable to
the plaintiff.” Id. “To survive a motion to dismiss, a complaint must contain
sufficient factual matter, accepted as true, to state a claim to relief that is
plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009); see also Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570 (2007).

II.

The Doctrine of Laches
It is well established that “[w]e may . . . affirm on any basis for which there

is a record sufficient to permit conclusions of law, including grounds upon
which the district court did not rely.” Name.Space, Inc. v. Network Solutions, Inc.,
202 F.3d 573, 584 (2d Cir. 2000). The doctrine of laches “protect[s] defendants
against unreasonable, prejudicial delay in commencing suit.” SCA Hygiene Prods.
Aktiebolag v. First Quality Baby Prods., LLC, 137 S. Ct. 954, 960 (2017). “A party
asserting a laches defense must show that the plaintiff has inexcusably slept on

13
A-13

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

its rights so as to make a decree against the defendant unfair. Laches . . . requires
a showing by the defendant that it has been prejudiced by the plaintiff’s
unreasonable delay in bringing the action.” Merrill Lynch Inv. Managers, 337 F.3d
at 132 ; see also Matter of Stockdale v. Hughes, 189 A.D.2d 1065, 1067 (N.Y. App.
Div. 1993) (“It is well settled that where neglect in promptly asserting a claim for
relief causes prejudice to one’s adversary, such neglect operates as a bar to a
remedy and is a basis for asserting the defense of laches . . . .”).
“[M]ere lapse of time, without a showing of prejudice, will not sustain a
defense of laches.” Saratoga Cty. Chamber of Commerce v. Pataki, 100 N.Y.2d 801,
816 (2003).5 “A defendant has been prejudiced by a delay when the assertion of a
claim available some time ago would be inequitable in light of the delay in
bringing that claim.” Conopco Inc. v. Campbell Soup Co., 95 F.3d 187, 192 (2d Cir.
1996). Finally, laches may be decided “as a matter of law” when “the original
owner’s lack of due diligence and prejudice to the party currently in possession
are apparent.” Matter of Peters v. Sotheby’s Inc., 34 A.D.3d 29, 38 (N.Y. App. Div.
2006).

Both parties rely solely on New York law in making arguments
concerning laches. Therefore, we do the same.
5

14
A-14

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

a. Unreasonable Delay
First, we conclude that the delay in this case was unreasonable. The
Painting is an important and well‐known work by an influential and celebrated
artist. The Leffmanns sold it for a substantial sum to a French dealer. The
Painting was then moved to the United States, where it was acquired by a major
public institution. Meanwhile, the Leffmanns were in Brazil beginning in October
1938, and Switzerland from 1947 until Alice Leffmann died in 1966.
It is evident on the face of the complaint that the Leffmanns knew to whom
they sold the Painting in 1938, and Zuckerman nowhere contends that the
Leffmanns, despite making some post‐war restitution claims, made any effort to
recover the Painting. Indeed, over seventy years passed between the sale of the
painting in 1938 and Zuckerman’s demand that the Met return the Painting in
2010. See, e.g., Krieger v. Krieger, 25 N.Y.2d 364, 370 (1969) (delay of twelve years
in commencing an action for declaratory judgment that a Florida divorce decree
was void was an “inordinate length of time”).
It is eminently understandable that the Leffmanns did not bring any claim
for the Painting during the course of World War II and even, perhaps, for a few
years thereafter, given their specific circumstances. However, it is simply not

15
A-15

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

plausible that the Leffmanns and their heirs would not have been able to seek
replevin of the Painting prior to 2010. As noted above, the Leffmanns, being a
financially sophisticated couple, actively and successfully pursued other claims
for Nazi‐era losses. This is not a case where the identity of the buyer was
unknown to the seller or the lost property was difficult to locate. Indeed, the
Painting was a “masterwork” of Picasso, not an obscure piece of art. J. App’x 33.
Nor is this a case where the plaintiff alleges that the buyers themselves exerted
any undue or improper pressure on the sellers. The Leffmanns could have
contacted Käte Perls, the MoMA, or the Met. Since at least 1967, “P. Leffmann”
has been listed as a prior owner of the Painting. Although that—concededly
incomplete—provenance was included in the Met’s published catalogue, none of
the Leffmanns’ heirs demanded that the Painting be returned. See Peters, 821
N.Y.S.2d at 68‐69 (concluding that the pre‐suit delay was unreasonable given that
“neither the estate nor anyone in the [original owner’s] family . . . attempted to
recover the painting from the [subsequent purchaser], even though both families
lived in Manhattan and the painting was exhibited . . . at prominent museums,
galleries, and universities”).

16
A-16

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

b. Prejudice
While the determination of prejudice is ordinarily fact‐intensive, even at
this early stage of the proceedings, based on the unusual circumstances
presented by the complaint, we conclude that the Met has been prejudiced by the
more than six decades that have elapsed since the end of World War II. This time
interval has resulted in “deceased witness[es], faded memories, . . . and hearsay
testimony of questionable value,” as well as the likely disappearance of
documentary evidence. Solomon R. Guggenheim Found. v. Lubell, 153 A.D.2d 143,
149 (N.Y. App. Div. 1990). Assuming arguendo that Plaintiff’s central claim that
the Sale is void because it was made under third‐party duress is cognizable
under New York law, resolution of that claim would be factually intensive and
dependent on, among other things, the knowledge and intent of the relevant
parties. See Restatement (Second) of Contracts § 175(2) (1981). No witnesses
remain who could testify on behalf of the Met that the Sale was voluntary,6 or
indeed on behalf of the Plaintiff that the Painting was sold “involuntar[ily],”
Kamerman v. Steinberg, 891 F.2d 424, 431 (2d Cir. 1989), because the Leffmanns
“had absolutely no other alternative,” Kenneth D. Laub & Co., Inc. v. Domansky,

6

Käte Perls died in 1945. Paul Rosenberg died in 1959. Hugo Perls died in

1977.
17
A-17

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

172 A.D.2d 289, 289 (N.Y. App. Div. 1991).7 Nor are there first‐hand witnesses
who could testify to facts relevant to the Met’s possible affirmative defenses,
including whether Foy purchased the Painting in good faith. On these facts, “the
original owner[s’] lack of due diligence and prejudice to the party currently in
possession are apparent,” and the issue of laches can be decided as a matter of
law. Peters, 34 A.D.3d at 38.8

Under New York’s “demand and refusal” rule, the statute of limitations
is not triggered “until a bona fide purchaser refuses an owner’s demand for return
of a stolen art object.” DeWeerth v. Baldinger, 38 F.3d 1266, 1272 (2d Cir. 1994). If
this rule applies to claims for art objects sold under duress, the failure to pursue
legal proceedings related to the Painting—namely, to make a demand—also
prejudiced the Met by essentially extending the New York statute of limitations
indefinitely. See Peters, 34 A.D.3d at 36. In Peters, the Appellate Division
recognized that a consequence of New York’s “demand and refusal” rule is that
“there is a potential for a plaintiff to indefinitely extend the statute of limitations
by simply deferring the making of the requisite demand” and that such a
consideration is relevant to a laches analysis. Id. We do not reach the question of
whether New York’s “demand and refusal” rule, which unquestionably applies
to stolen and looted art, applies to claims of an owner demanding the return of
an art object sold under duress.
7

Peters also involved a claim to recover a Nazi‐era loss. In that case, in the
early 1930s, the original owner of the painting at issue, Professor Curt Glaser,
entrusted it to his brother, Paul, while fleeing Nazi Germany. Id. at 31. Paul,
however, “apparently sold the work within the following year without first
obtaining [Curt’s] consent.” Id. The painting ended up at a well‐known art
gallery in Cologne, Germany. Id. That gallery sold it to a steel magnate named
Otten. Id. Otten fled Germany in 1937 but sent the painting out of the country. Id.
at 32. Soon after learning that the painting had been sold, Curt Glaser attempted
8

18
A-18

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

c. The HEAR Act
Zuckerman argues in the alternative that, because her claims are timely
pursuant to the applicable statute of limitations as codified by the HEAR Act, a
laches defense is unavailable in this case.

to buy it back but was rebuffed. Id at 31. He never “report[ed] a theft and,
indeed, did not regard the painting as having been stolen.” Id. at 35.
The painting eventually ended up in the United States, where it was
exhibited in several museums and universities. Id. at 32. Decades later, the Otten
family consigned the painting to Sotheby’s which, in 2002, sold it for $1.5 million.
Id. It was only in December 2003 that the petitioner (a descendant of Glaser’s)
sought to recover the painting on the theory that it was converted or otherwise
misappropriated. Id. at 33.
The Appellate Division rejected the request for pre‐action discovery to
identify the new owner of the painting. It did not squarely hold whether the sale
in that case constituted a conversion, finding instead that even “assum[ing] that
the subject [painting] was converted,” any claim for recovery was barred by the
statute of limitations and the doctrine of laches. Id. at 37. With respect to laches,
although Glaser attempted to buy back the painting soon after his brother sold it,
he never made a legal claim for the painting. Id. at 35. Further, “[t]he delay by the
Glaser family and the estate in asserting any claim of ownership during the
approximately 70‐year odyssey of [the painting] prejudiced the good‐faith
purchaser since none of the parties to the original sale of the painting—Professor
Glaser, Albert Otten and Paul Glaser—are alive.” Id. at 38. The Appellate
Division determined that “the original owner’s lack of due diligence and
prejudice to the party currently in possession are apparent,” such that the issue
of laches could be decided as a matter of law, even at the pre‐action discovery
stage. Id. The Court of Appeals denied petitioner’s motion for leave to file an
appeal. Matter of Peters v. Sotheby’s Inc., 8 N.Y.3d 809 (2007).
19
A-19

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

The HEAR Act addresses the “unfair impediment” caused by “[s]tate
statutes of limitations” that do not account for “the unique and horrific
circumstances of World War II and the Holocaust.” S. REP. NO. 114‐394, at 5
(2016). The HEAR Act encourages the return of Nazi‐stolen and looted artwork
to Holocaust victims, heirs, and their survivors by preempting state statutes of
limitations and imposes instead a uniform nationwide six‐year statute of
limitations. Specifically, the statute provides that “a civil claim or cause of action
against a defendant to recover any artwork or other property that was lost
during [the period between 1933 and 1945] because of Nazi persecution may be
commenced not later than 6 years after the actual discovery by the claimant . . . .”
HEAR Act § 5(a).9
Generally, “in [the] face of a statute of limitations enacted by Congress,
laches cannot be invoked to bar legal relief.” Petrella v. Metro‐Goldwyn‐Mayer,
Inc., 572 U.S. 663, 679 (2014); see also SCA Hygiene Prods., 137 S. Ct. at 960 (“The
enactment of a statute of limitations necessarily reflects a congressional decision
that the timeliness of covered claims is better judged on the basis of a generally

Amicus Holocaust Art Restitution Project (“HARP”) urges us extend the
HEAR Act beyond its enumerated scope and to create a federal common law
cause of action for replevin for “Nazi‐confiscated artwork.” HARP Br. 15‐30. We
decline to do so.
9

20
A-20

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

hard and fast rule rather than the sort of case‐specific judicial determination that
occurs when a laches defense is asserted.”).
This general rule does not apply to the HEAR Act. While the HEAR Act
revives claims that would otherwise be untimely under state‐based statutes of
limitations, it allows defendants to assert equitable defenses like laches. The
statute explicitly sets aside “defense[s] at law relating to the passage of time.”
HEAR Act § 5(a) (emphasis added). It makes no mention of defenses at equity.
“[A] major departure from the long tradition of equity practice should not be
lightly implied.” eBay Inc. v. MercExchange, L.L.C., 547 U.S. 388, 391 (2006).
Moreover, a key Senate committee report accompanying the statute, discussed
infra, unequivocally indicates that the Act does not preclude equitable defenses.10
S. REP. NO. 114‐394, at 7.
Allowing defendants to assert a laches defense, despite the introduction of
a nationwide statute of limitations designed to revive Holocaust‐era restitution

The HEAR Act applies to claims to “recover any artwork . . . that was
lost during the [Holocaust era] because of Nazi persecution.” HEAR Act § 5(a). A
stated purpose of the law is to recover property “stolen or misappropriated by
the Nazis.” Id. § 3(2). We need not and do not decide whether Zuckerman’s
claims, for recovery of art sold under duress to non‐Nazi affiliates, are within the
ambit of the statute. Even if we assume arguendo they are, her claims are
nevertheless barred by the doctrine of laches.
10

21
A-21

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

claims, comports with the overall legislative scheme advanced by the HEAR Act.
One of the stated purposes of the HEAR Act is to ensure that claims to recover
art lost in the Holocaust era are “resolved in a just and fair manner.” HEAR Act
§ 3(2). But the HEAR Act does not allow potential claimants to wait indefinitely
to bring a claim.11 To do so would be neither just nor fair. At the very core of a
successful laches defense is prejudice to the defending party: even an
unreasonable delay is not fatal to a claim if there has been no harm to the other
party. Unlike a mechanical application of a statute of limitations, a laches defense
requires a careful analysis of the respective positions of the parties in search of a
just and fair solution. 12

The HEAR Act’s six‐year statute of limitations applies after “actual
discovery” of the claim. HEAR Act § 5(a). The statute also contains an exception
to this generally applicable rule for preexisting claims: those will still be time‐
barred under the applicable state statute of limitations if “(1) the claimant or a
predecessor‐in‐interest of the claimant had knowledge of [the claim] on or after
January 1, 1999; and (2) not less than 6 years have passed from the date such
claimant or predecessor‐in‐interest acquired such knowledge and during which
time the civil claim or cause of action was not barred by a Federal or State statute
of limitations.” Id. § 5(e). The Senate Report explained that Congress “recognizes
the importance of quieting title in property generally and the importance that
claimants assert their rights in a timely fashion.” S. REP. NO. 114‐394, at 10.
11

The general principle that a codified statute of limitations prevents a
defendant from asserting a laches defense does not apply to New York’s
applicable three‐year statute of limitations for recovery of a chattel, N.Y. C.P.L.R.
§ 214. Even when a claim is timely pursuant to the statute of limitations, a
12

22
A-22

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

Finally, the legislative history of the HEAR Act makes clear that Congress
intended that laches remains a viable defense to otherwise covered claims. An
early draft of the bill, introduced in the Senate Committee on the Judiciary on
April 7, 2016, would have explicitly swept aside a laches defense. Holocaust
Expropriated Art Recovery Act, S. 2763, 114th Cong. § 5(c)(2)(A) (as introduced
in Senate, Apr. 7, 2016) (permitting recovery “[n]otwithstanding . . . any . . .
defense at law or equity relating to the passage of time (including the doctrine of
laches)” (emphasis added)). That draft also stated that one of the purposes of the
HEAR Act was to ensure that claims for the recovery of art lost during the
Holocaust era were “not barred by statutes of limitations and other similar legal
doctrines but are resolved in a just and fair manner on the merits.” Id. § 3
(emphasis added).

defendant may still assert a laches defense. See, e.g., Solomon R. Guggenheim
Found. v. Lubell, 77 N.Y.2d 311, 321 (1991) (holding that “although [defendant‐
]appellant’s Statute of Limitations argument fails, [its] contention that the
[plaintiff] did not exercise reasonable diligence in locating the painting” is
relevant “in the context of [a] laches defense”). Were this not the case, plaintiffs
could, as discussed supra n.7, delay bringing their claims indefinitely without
consequence. The availability of a laches defense in this context allows courts to
examine whether a plaintiff has abused New York’s idiosyncratic “demand and
refusal” rule in a way that is unfair to defendants, while keeping that rule in
place. Thus, even if Zuckerman’s claims were properly brought within the New
York statute of limitations (a question we do not reach), they can still be barred
by laches.
23
A-23

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

The final version of the bill, however, drops this language. Introduced in
the House on September 22, 2016, and the Senate on September 29, 2016, the final
version does not include any mention of laches or other equitable defenses. In
addressing the amendment, which was in the nature of a substitute, the Senate
Report explicitly noted that the new version “remove[d] the reference precluding
the availability of equitable defenses and the doctrine of laches.” See S. REP. NO.
114‐394, at 7. Moreover, there is no mention of “other similar legal doctrines” in
the purposes section of the final version of the statute. The final version notes
that one of the purposes is to “ensure that claims to artwork and other property
stolen or misappropriated by the Nazis are not unfairly barred by statutes of
limitations but are resolved in a just and fair manner.” HEAR Act § 3(2). “Where
Congress includes limiting language in an earlier version of a bill but deletes it
prior to enactment, it may be presumed that the limitation was not intended.”
Russello v. United States, 464 U.S. 16, 23‐24 (1983); see also Simon J. Frankel & Sari
Sharoni, Navigating the Ambiguities and Uncertainties of the Holocaust
Expropriated Art Recovery Act of 2016, 42 Colum. J.L. & Arts 157, 175‐76 (2019)
(“[B]y removing laches from the draft text of the statute, Congress intended laches
and other equitable defenses under state law to remain available to good faith

24
A-24

18‐634‐cv
Zuckerman v. The Metropolitan Museum of Art

possessors of artworks.”). The HEAR act does not prevent defendants from
asserting a laches defense. We emphasize that each case must be assessed on its
own facts: while the laches defense succeeds here, in other cases it will fail and
not impede recovery for claims brought pursuant to the HEAR Act.

CONCLUSION
For the reasons set forth above, we conclude that the HEAR Act does not
preempt the Met’s laches defense and that Zuckerman’s claims are barred by
laches. Accordingly, we AFFIRM the judgment of the district court.

25
A-25

Case 18-634, Document 190, 08/29/2019, 2643676, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
29th day of August, two thousand nineteen.
________________________________________
Laurel Zuckerman, as Ancillary Administratrix of the
estate of Alice Leffmann,
Plaintiff - Appellant,

ORDER
Docket No: 18-634

v.
The Metropolitan Museum of Art,
Defendant - Appellee.
_______________________________________

Appellant, Laurel Zuckerman, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

A-26

CERTIFICATE OF SERVICE
I, Mary-Christine Sungaila, a member of the bar of this Court, certify that on
November 14, 2019, all parties required to be served have been served with copies of
the foregoing Application for Extension of Time to File Petition for Writ of Certiorari
via first-class mail at the addresses listed below:

Counsel for the Metropolitan Museum of Art
David W. Bowker
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Avenue, NW
Washington, DC 20006
(202) 663-6000
Michael D. Gottesman
Wilmer Cutler Pickering Hale and Dorr LLP
Seven World Trade Center
250 Greenwich Street
New York, New York 10007
(212) 230-8800

Counsel for Petitioner Laurel Zuckerman (courtesy copy)
Lawrence M. Kaye
Ross L. Hirsch
Yael M. Weitz
Herrick, Feinstein LLP
Two Park Avenue
New York, New York 10016
(212) 592-1400
Dated: November 14, 2019

~-

Counsel of Record
Haynes and Boone, LLP
600 Anton Blvd., Suite 700
Costa Mesa, CA 92626
Telephone: 949-202-3000
mc.sungaila@haynesboone.com

7

